HHS/OIG, Audit -"Review of Pension Costs Claimed for Medicare Reimbursement by Anthem Health Plans of Maine, Inc. for Fiscal Years 2001 Through 2002,"(A-07-05-00194)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Reimbursement by Anthem Health Plans of Maine, Inc. for Fiscal Years 2001 Through 2002," (A-07-05-00194)
October 18, 2005
Complete Text of Report is available in PDF format (481 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine the allowability of pension costs claimed by Athem Health Plans of Maine, Inc. for Medicare reimbursement for fiscal years (FY) 2001 through 2002.  We found that Maine claimed unallowable Medicare pension costs for FYs 2001 through 2002.  During this period, the allowable Medicare pension costs were $20,800.  However, Maine claimed pension costs of $183,907 for Medicare reimbursement.  Maine claimed $163,107 of unallowable pension costs because it did not claim pension costs in accordance with its Medicare contract.
We recommended that Maine:  (1) revise its Final Administrative Cost Proposals for FYs 2001 through 2002 to reduce its claimed pension costs by $163,107 and (2) claim future pension costs in accordance with the Medicare contract.  Anthem agreed with our report finding.  Anthem also provided information that we used to clarify the report background.